Monthly Update Report Data (sheet 1 of 4) Version 4.0a
                 Reporting Entity: Department of State - OIG
               Month Ending Date: 05/31/2010

                                                                  Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau           Recovery Act TAFS        Award Type       US Indicator       Total Obligations      Total Gross       Direct or      Ordering TAFS
No.                                                                                                                         Outlays        Reimbursable
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $37,608          $27,070      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 1                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                     $137,618         $124,964      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 2                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $20,000          $11,503      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 3                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                    $108,308          $92,659       Direct            N/A
                                    State - OIG - Recovery   Orders (including
 4                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                    $118,799            $2,785      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 5                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $95,137           $2,619      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 6                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                    $164,159            $2,113      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 7                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $88,574           $2,259      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 8                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $72,249           $9,555      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 9                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $95,137           $2,785      Direct            N/A
                                    State - OIG - Recovery   Orders (including
                                    Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $95,137           $2,763      Direct            N/A
                                    State - OIG - Recovery   Orders (including
10                                  Act                      modifications)

                                                   Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau         FY 2009 Non-Recovery      Total FY 2009     Total FY 2009   FY 2010 Non-Recovery     Total FY 2010    Total FY 2010
No.                                        Act TAFS             Obligations      Gross Outlays         Act TAFS            Obligations     Gross Outlays
      Department of State - OIG     (19-0529 2009) State -             $59,536          $59,536 (19-0529 2010) State -           $52,516          $52,516
 1                                  OIG                                                         OIG
 2
 3
 4
 5
 6
 7
 8
 9
10
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
        Reporting OIG: Department of State - OIG
    Month Ending Date: 5/31/2010

                           FTE Working on Recovery
                                                                                                                                 Testimonies:
      Fiscal Year             2009              2010                  Cumulative
       Newly Hired FTE
                             0.00                  0.00                  0.00                                            Provided (monthly):        0
           (cumulative):

FTE Funded by Recovery
                             0.08                  1.00                  1.08                                          Provided (cumulative):       0
 Act Funds (cumulative):

     FTE Not Funded by
    Recovery Act Funds       0.50                  0.21                  0.71
          (cumulative):

                                                                                                                     Audits / Inspections / Evaluations /
             Complaints                Whistleblower Reprisal Allegations                   Investigations                                                        Training / Outreach
                                                                                                                                   Reviews
            Monthly Data                           Monthly Data                             Monthly Data                        Monthly Data                         Monthly Data

                                                                                                                                                                  Training Sessions
              Received:       0                           Received:      0           Opened (this month):     0        Initiated (this month):      2                                   0
                                                                                                                                                                          Provided:

                                                                                   Active (as of the end of          In Process (as of the end
                                                          Accepted:      0                                    0                                    12          Individuals Trained:     0
                                                                                               the month):                     of the month):
                                                                                                                             Completed Final
                                                                                                                                                                  Hours of Training
                                                                                         Pending Decision:    0              Published Work         0                                   0
                                                                                                                                                                         Provided:
                                                                                                                                     Products:
                                                                                                                              Priority Interim
                                                                                                                                                                Outreach Sessions
                                                                                    Closed without Action:    0              Published Work         0                                   0
                                                                                                                                                                      Conducted:
                                                                                                                                     Products:
                                                                                            Accepted for                   Unpublished Work
                                                                                                              0                                     0
                                                                                             Prosecution:                          Products*:
                                                                                    Prosecution Declined:     0
                                                                                   Referred for Alternative
                                                                                                              0
                                                                                               Resolution:
  Cumulative Data Since 2/17/2009      Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                           Completed Final
                                                                                                                                                                  Training Sessions
              Received:       3                           Received:      1          Closed without Action:    0            Published Work        5                                      1
                                                                                                                                                                          Provided:
                                                                                                                                  Products:
                                                                                                                            Priority Interim
                                                                                              Accepted for
                                                          Accepted:      0                                    0            Published Work                      Individuals Trained:     20
                                                                                              Prosecution:
                                                                                                                                  Products:
                                                                                                                         Unpublished Work                         Hours of Training
                                                                                    Prosecution Declined:     0                                  1                                      40
                                                                                                                                 Products*:                              Provided:

                                                                                   Referred for Alternative                                                     Outreach Sessions
                                                                                                              0            Cumulative Total:        6                                   4
                                                                                               Resolution:                                                            Conducted:

                                                                                        Cumulative Total:     0
Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 05/31/2010

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Held entrance conferences for two OIG-staffed performance audits of Department programs funded by ARRA:
        2             * Replacement of Department of State Desktop Computers ($13 million)
        3             * Replacement of Department of State Diplomatic Facility Telephone Systems ($10 million)
        4
        5            Received comments from Department management on two draft reports:
        6             * International Boundary and Water Commission Contract Award and Management of Funds Provided by ARRA
        7             * Department Compliance with Transparency and Accountability Reporting Requirements of ARRA
        8
                     Distributed announcement letter for an audit of the ARRA-funded Bureau of Consular Affairs Passport Facilities, to be
         9
                     conducted by an Independent Public Auditing firm (IPA)
        10

       No.                                 OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
                     OIG will initiate performance and financial audits, to be conducted by IPAs in El Paso, Texas, for IBWC Recovery Act
         1
                     contracts that will include contractor compliance with labor standards and regulations
                     OIG will assist IPA conducting a performance audit of Worldwide Computer Security System Enhancements funded by
         2           ARRA. OIG staff will travel overseas to verify ARRA-funded equipment purchased for embassies that will provide next
                     generation secure telephones and security systems for computer system authentication and access controls.
                     OIG audit staff anticipate visiting four or five posts during July-August to conduct fieldwork concurrently for audits to
         3
                     replace desktop computers and diplomatic facility telephone systems using ARRA funds
                     An entrance conference is scheduled to be held in June for an audit being conducted by an IPA on Department of State
         4
                     Compliance with Federal Procurement Data System Reporting Requirements for ARRA-funded projects.
         5
         6
         7
         8
         9
        10
Monthly Update Report Data (sheet 4 of 4) Version 4.0a
 Reporting OIG: Department of State - OIG
  Month Ending
                05/31/2010
          Date:

                                                                                 TRAINING ACTIVITIES
                                                                                                                                         Hours of
                                                                                    Training                  Length of                  Training                 Presentation    Average
                                                Target                                             Date of                 Number of                   Cost of
     No.              Type of Training                       Title of Training   Location (City,              Training                  Provided                   with Other    Evaluation
                                               Audience                                            Training               Participants                 Training
                                                                                     State)                    (hours)                   (length x                    OIGs         Rating
                                                                                                                                       participants)
     1                                                                                                                                             0
     2                                                                                                                                             0
     3                                                                                                                                             0
     4                                                                                                                                             0
     5                                                                                                                                             0
     6                                                                                                                                             0
     7                                                                                                                                             0
     8                                                                                                                                             0
     9                                                                                                                                             0
     10                                                                                                                                            0
     11                                                                                                                                            0
     12                                                                                                                                            0
     13                                                                                                                                            0
     14                                                                                                                                            0
     15                                                                                                                                            0
                                                                                                               TOTAL                 0             0

                                            OUTREACH ACTIVITIES
                                               Number of
                                             Organizations                         Outreach
                   Organization to which                     Description of                         Date of
     No.                                     Represented                         Location (City,
                    Outreach Provided                          Outreach                            Outreach
                                              at Outreach                            State)
                                                Session
     1
     2
     3
     4
     5
     6
     7
     8
     9
     10
     11
     12
     13
     14
     15
